                                                                      Office of Inspector General

                                                                      U.S. Department of Homeland Security
                                                                      Central Regional Office
                                                                      Office of Disaster Assistance Oversight
                                                                      3900 Karina Street, Room 224
                                                                      Denton, Texas 76208




                                     August 20, 2007


MEMORANDUM FOR:              James W. Stark, Director
                             FEMA Louisiana Transitional Recovery Office



FROM:                        Tonda L. Hadley, Director
                             Central Regional Office

SUBJECT:                     Review of Hurricane Katrina Debris Removal Activities
                              Washington Parish, Louisiana
                             FEMA Disaster No. 1603-DR-LA
                             Public Assistance Identification Number 117-99117-00
                             Report Number DD-07-11


Attached is our report on the subject review. We contracted with the independent public accounting
firm Foxx & Company to perform this review. The report identifies six reportable conditions
including unsupported costs claimed for right-of-way debris removal, direct labor hours charged for
administrative personnel, unsupported claims for tree stumps, limited use of administrative
allowance funds, contractual concerns with the monitoring contract, and costs claimed exceeding
FEMA approved rates.

We discussed the results of this review with grantee and FEMA officials on June 11, 2007, and
Parish officials on June 12, 2007. FEMA and grantee officials withheld comments on the report.
Parish officials provided editing comments, which were incorporated into the report where
appropriate, but withheld official comments. Please advise this office by November 20, 2007, of the
actions taken or planned to implement the recommendations, including target completion dates for
any planned actions. If you have questions concerning this report, please call me at (940) 891-8900.
Attachment

cc:   DHS Audit Liaison
      FEMA Audit Liaison
      Deputy Director, GCRO
      Chief Financial Director, Gulf Coast Recovery Office
      Regional Director, FEMA Region VI
      Public Assistance Officer, FEMA Louisiana Transitional Recovery Office
      Chief of Staff, FEMA Louisiana TRO
      Manager, Compliance Audit Division, Louisiana Legislative Auditor
      Louisiana State Coordinating Officer
      Louisiana State Inspector General
      Louisiana Legislative Auditor
      Director of Finance, Gulf Coast Recovery Office
August 20, 2007

Office of Inspector General
U.S. Department of Homeland Security
Washington, D.C.

We performed a review of ongoing Hurricane Katrina debris removal activities in Washington
Parish, Louisiana. The objective of the review was to determine whether the awarded contracts
and contractor billings were in compliance with applicable Federal criteria. We also reviewed
selected aspects of the Parish’s overall management in view of the magnitude of the debris
created by Katrina. We performed the review according to our GSA Contract Number GS-23F-
9832H and Task Order TPD-FIG-06-K-00027 dated January 9, 2006.

The attached report includes recommendations to improve the Parish’s management of the debris
removal grants. We discussed the review results in draft with cognizant Department of
Homeland Security, State of Louisiana, and Parish officials. The comments received were
incorporated, as appropriate, within the body of the report.

We appreciate the opportunity to have conducted this review. If you have any questions, or if we
can be of any further assistance, please call me at (513) 639-8843.

Sincerely,

Foxx & Company




Martin W. O’Neill
Partner
                            TABLE OF CONTENTS/ACRONYMS
INTRODUCTION .........................................................................................................................1

RESULTS OF REVIEW ...............................................................................................................1

     A. Unsupported Costs for Right-of-Way Debris Removal ......................................................1

     B. Direct Labor Hours Charged for Administrative Personnel.................................................4

     C. Unsupported Costs for Tree Stumps ....................................................................................5

     D. Limited Use of Administrative Allowance Funds ...............................................................6

     E. Contractual Concerns with the Monitoring Contract ...........................................................7

     F. Excess Costs for Leaners and Hangers.................................................................................8

DISCUSSIONS WITH MANAGEMENT ................................................................................10

ATTACHMENTS:

     I. Schedule of Approved Project Worksheets and Questioned Costs .....................................11

     II. Objective, Scope, and Methodology ...................................................................................12


ACRONYMS:

          CFR                  Code of Federal Regulations
          DHS                  Department of Homeland Security
          FEMA                 Federal Emergency Management Agency
          PW                   Project Worksheet
                                        INTRODUCTION

Hurricane Katrina struck Washington Parish, Louisiana (Parish) on August 29, 2005. The
devastation was extensive. By September 30, 2006, the cut-off date for our review, FEMA
approved 15 Public Assistance Grant Program Project Worksheets (PWs) for the removal of
about 2.1 million cubic yards of debris from the Parish. The approved cost of the debris removal
was over $94.3 million. A schedule of the approved PWs is included as Attachment I.

Hurricane Katrina offered a tremendous challenge to Parish officials. The Parish had never
experienced a disaster of this magnitude and Parish officials were unfamiliar with the federal
requirements that came along with receiving financial assistance from FEMA. Nevertheless, the
Parish, taken as a whole, did a commendable job in managing the removal of the debris created
by Katrina. Even though our review identified the reportable conditions discussed in this report,
the Parish learned quickly from mistakes made early in the clean-up effort.

FEMA funded 100 percent of the cost of debris removal for all applicants affected by Hurricane
Katrina. As of September 30, 2006, the Parish received $62.4 million from the Louisiana
Governor’s Office of Homeland Security and Emergency Preparedness (State), a FEMA grantee.


                                    RESULTS OF REVIEW

In the wake of Hurricane Katrina, the Parish removed large volumes of debris from the Parish.
The removal of the debris helped to restore public health and safety to ensure economic recovery
throughout the Parish. However, we identified the following reportable conditions that resulted
in questioned costs of $2,098,111:

   •   Unsupported Costs for Right-of-Way Debris Removal ($743,700)
   •   Direct Labor Hours Charged for Administrative Personnel ($613,325)
   •   Unsupported Costs for Tree Stumps ($741,086)
   •   Limited Use of Administrative Allowance Funds
   •   Contractual Concerns with the Monitoring Contract
   •   Excess Costs for Leaners and Hangers


A. Unsupported Costs for Right-of-Way Debris Removal

Through September 30, 2006, the cut-off date for our review, the State approved Parish
reimbursement requests totaling $24,225,338 under PWs 270, 2643, and 3242 for the removal of
debris from right-of-ways. Of this amount, about $743,700 was not supported. We identified
additional areas of concern that were not quantified during our review but that the Parish should
resolve to ensure that the costs claimed were accurate and supported.

The Parish relied exclusively on a monitoring contractor to oversee the activities of its right-of-
way debris removal contractor. We applied an analytical technique (data mining) to databases


                                                 1
provided by the monitoring and debris removal contractors to test the supportability of the costs
claimed. Our analysis identified $743,700 of unsupported debris removal costs.

Recognizing the magnitude of cleanup needed, Parish officials elected to rely on a monitoring
contractor to oversee the loading, hauling, and measuring of debris from right-of-ways within the
Parish. The monitoring contractor’s responsibility included assuring the Parish that costs billed
by the right-of-way debris removal contractor were accurate and supported before the Parish
submitted reimbursement requests for FEMA funds. However, the monitoring contractor’s
records did not include a compilation of the load tickets that supported individual invoices
certified as accurate and supportable.

The risk level for unsupported costs was high because of the difficulty in reviewing contractor
invoices for the magnitude of the debris removed from the Parish. Therefore, we obtained copies
of the debris removal and monitoring contractors’ databases that contained the official support
for the Parish’s reimbursement requests. We compared the costs and supporting information
within and between the databases through the use of data mining to identify inconsistencies or
other anomalies concerning the costs billed by the right-of-way debris removal contractor. Our
comparisons identified the following anomalies:

Anomaly 1

       The monitoring contractor provided a list of 525 trucks with certified capacities for
       hauling debris from the Parish. The list did not include equipment that did not have a
       capacity to haul debris (e.g., loaders). We matched the list of certified trucks to load
       tickets included in the databases the debris removal and monitoring contractors provided.
       The load tickets identified the trucks that hauled the debris. The comparisons identified
       365 trucks that hauled debris but were not on the monitoring contractor’s list of certified
       trucks. The monitoring contractor provided additional documentation in response to our
       questioning to support that 308 of the 365 trucks were certified, even though the 308
       trucks had not been included on the list of certified trucks. The monitoring contractor did
       not provide supporting documentation that the remaining 57 trucks were certified to haul
       debris. Without official certifications, the cost of debris hauled in each truck was not
       eligible for reimbursement. The costs claimed for debris hauled by the 57 uncertified
       trucks totaled about $64,000, which we question as ineligible.

Anomaly 2

       As discussed in Anomaly 1, we identified 308 certifications from documentation the
       monitoring contractor provided in response to our questions concerning truck
       certifications. Of the 308 vehicle certifications, 171 were loaders and other non-hauling
       equipment. The databases included load tickets for the 171 vehicles indicating that the
       vehicles hauled debris even though they were not debris haulers. The costs claimed for
       the debris hauled by this equipment totaled about $208,000, which we question as
       unsupported.




                                                2
Anomaly 3

       The Parish based payments to the debris removal contractor on the monitoring
       contractor’s determinations of cubic yards hauled to the dump locations. From an
       elevated tower, the monitoring contractor’s personnel estimated the quantity of debris in
       the trucks. Guidance from FEMA and the monitoring contractor stated that it is virtually
       impossible for a truck to be 100 percent full when carrying vegetative or construction and
       demolition (C&D) debris. Still, the contractor databases included 2,457 truckloads
       (115,760 cubic yards) of vegetative and C&D debris estimated at 100 percent per truck.
       According to FEMA guidance and discussions with FEMA officials, estimates of
       capacities from towers should be in 5 percent increments. Because it was not feasible for
       trucks to be 100 percent full, the maximum capacity claimed should have been 95
       percent. Accordingly, we question 5 percent ($96,700) of the costs claimed ($1,933,981)
       for the 2,457 truckloads of vegetative and C&D debris as unsupported.

Anomaly 4

       The databases included multiple entries for over 6,100 load ticket numbers for vegetative
       and C&D debris. Of the 6,100 load tickets, 297 were entered into the databases from
       three to five times. The database included 1,527 entries for the 297 tickets. The debris
       removal and the monitoring contractors maintained separate databases. Because slight
       differences in entries would cause the database comparisons to identify two separate
       entries for the same ticket number, we conservatively allowed two entry situations, one
       for each database. For example, inserts of extra spaces and capitalization differences
       when the contractors entered load ticket information into their respective databases would
       cause a mismatch between the two databases. After allowing two entries for each of the
       297 tickets, we questioned 933 entries that represented 29,735 cubic yards of debris that
       was invoiced as hauled: 25,780 for C&D ($12.00/CY) and 3,955 for vegetative debris
       ($16.75/CY). The cost for hauling the 29,735 cubic yards of debris was about $375,000,
       which we question as ineligible.

Our database comparisons identified additional areas of concern that should be resolved to
ensure that the costs claimed for the removal of debris from right-of-ways were accurate and
supported. The concerns include situations where (1) load tickets exist in the debris removal
contractor’s database but not in the monitoring contractor’s database, and vice versa; (2) the two
databases had different estimates of debris volume in trucks for the same load tickets; and,
(3) truck capacities obtained from load tickets exceeded truck capacity measurements cited on
individual official truck certifications. Because the condition of the supporting documentation
maintained by the Parish and the monitoring contractor was poor, we could not quantify these
concerns within the time and cost limitations of our review.

       Conclusion/Recommendations:

The nature and large number of anomalies demonstrate that the monitoring contractor did not
maintain sufficient records to support the assurances provided to the Parish that the costs billed



                                                 3
by the debris removal contractor were accurate and supported. The monitoring contractor should
have been able to identify the specific load tickets and other documentation that supported
individual invoices the Parish received from the debris removal contractor. The monitoring
contractor also should have been able to provide support to explain the anomalies identified from
the database comparisons.

The responsibility for explaining and documenting the resolution of the anomalies and providing
support for the costs claimed to FEMA rests with the Parish. The Parish should not pay the
debris removal contractor for unsupported invoices. In addition, the State should re-evaluate the
monitoring contractor’s performance and make appropriate adjustments for the quality of
services provided (reportable condition E.).

Accordingly, we recommend that the Director, FEMA Louisiana Transitional Recovery Office:

   1. Disallow $743,700 of ineligible and unsupported costs for debris removal, and

   2. Require the State to analyze the cost concerns identified but not quantified during our
      review and provide the results of their analysis to FEMA for determination whether
      additional costs should be disallowed.


B. Direct Labor Hours Charged for Administrative Personnel

The monitoring contractor billed labor costs totaling $613,325 for general management and
administrative positions not identified as billable positions in its contract with the Parish.
Therefore, we question the $613,325 as ineligible because these costs do not comply with the
terms of the contract and because they duplicate costs already included in the hourly rates of
positions identified in the contract. Federal regulations at 44 CFR 13.36(b)(2), state that
subgrantees are responsible for ensuring contractors perform according to the terms, conditions,
and specifications of their contracts.

In December 2005, under PW 3144, the Parish awarded a time-and-material contract for
monitoring the collection, removal, and demolition of debris from Parish right-of-ways. The
contract included the same direct labor positions, fixed labor-hour rates, and tasks as those
included in the Request for Proposals. The direct labor hour rates were not broken down into
cost components and, therefore, are assumed to be “fully loaded” rates that include wages,
overhead, general and administrative expenses and profit.

The costs claimed by the Parish through September 30, 2006, under PW 3144, included the
following labor hour charges for general management and administrative positions that were not
included in the monitoring contract:




                                                4
                                                                   Claimed
                                     Positions
                                                                  Labor Costs
                     Supervisor, Accounting                           $ 74,900
                     Supervisor, Quality Assurance                        1,680
                     Supervisor, Project Business Administrator          72,450
                     Supervisor, Health and Safety                      230,650
                     Supervisor, Billing                                 38,640
                     Debris Monitor, Data Entry                         195,005
                             Total Through September 30, 2006         $613,325

       Conclusion/Recommendation:

The terms of the monitoring contract did not provide for separate funding of general
management and administrative positions. Further, these types of costs duplicate costs already
included in the contractor’s fully loaded rates and were therefore not allowable. We question the
$613,325 as ineligible.

We recommend that the Director, FEMA Louisiana Transitional Recovery Office:

   3. Disallow the $613,325 claimed by the Parish under PW 3144 for the cost of general and
      administrative positions charged by the monitoring contractor through
      September 30, 2006, and any similar claims subsequent to this date.


C. Unsupported Costs for Tree Stumps

Under PW 2643, FEMA approved $8,052,000 for the removal and transportation of hazardous
stumps from the Parish. As of September 30, 2006, the Parish claimed $1,474,855 under this
PW. However, the contractor’s invoices supported only $733,769 of the $1,474,855 claimed.
Federal regulations at 44 CFR 13.20(b)(6) require grantees and subgrantees to support their
records with source documents such as cancelled checks, paid bills, payrolls, time and attendance
records, and contract and subgrant award documents. Therefore, we question $741,086 as
unsupported ($1,474,855 - $733,769).

Parish officials did not prepare or review cost reimbursement requests before they sent
reimbursement requests to the State. Instead, the officials relied on the monitoring contractor,
who oversaw the right-of-way debris removal operation for the Parish, to prepare reimbursement
requests. Parish officials were unaware of the unsupported costs claimed.

The monitoring contractor said that some of the unsupported costs were billed because the right-
of-way debris removal contractor submitted invoices that were later replaced by invoices in
which the amounts were changed. In addition, some invoices were submitted in two separate
reimbursement requests. The monitoring contractor could not further explain the unsupported
invoices.




                                                   5
        Conclusion/Recommendation:

Improper accounting for costs associated with the removal and transportation of stumps resulted
in the Parish claiming unsupported costs of $741,086. Only $733,769 of the Parish’s $1,474,855
claimed costs was supported by appropriate documentation.

Accordingly, we recommend that the Director, FEMA Louisiana Transitional Recovery Office,

    4. Disallow $741,086 of unsupported costs claimed under PW 2643.


D. Limited Use of Administrative Allowance Funds

The Parish did not spend its administrative allowance funds provided by FEMA and mistakenly
planned to transfer unused funds to its General Fund. However, funds not expended by closeout
of the grant must be returned to FEMA. Therefore, the Parish must forfeit unused administrative
funds when the FEMA grants are closed out. As of September 30, 2006, the Parish received, but
had not expended, $293,221 of administrative allowance funds.

Title 44 CFR 206.228 states that a Statutory Administrative Allowance is provided to
subgrantees to cover the necessary direct and indirect costs of requesting, obtaining, and
administering federal disaster assistance. This Statutory Administrative Allowance (sliding
scale) is automatically added as a percentage of the total amount of assistance for the subgrantee
when projects are processed. 1 Federal requirements state that subgrantees must maintain records
of how administrative allowance funds are spent. The records are subject to audit. In addition,
at closeout, unused administrative allowance funds must be returned to FEMA.

Parish officials said that the administrative allowance funds had not been used because the
monitoring contractors administered the debris removal projects. In addition, the officials were
not aware that the funds could be used to recover costs incurred by the Parish to request and
obtain grant funds or to enhance the Parish’s ability to administer the grants. The officials also
said they were not aware that any unused funds had to be returned to FEMA.

        Conclusions/Recommendations

The Parish will lose administrative allowance funds not used before grant closeout. The Parish
could have used the administrative allowance funds to enhance its ability to monitor debris
removal activities and to ensure that only allowable and supported costs were claimed. For
example, the Parish did not perform an independent analysis to determine if the monitoring
contractor was adequately reviewing invoices and collecting supporting documentation from the
debris removal contractor before approving the invoices and recommending to the Parish that it
submit the invoices to the State for reimbursement. The Parish should spend the administrative
allowance for eligible costs or return the unused funds to FEMA.


1
 The Administrative Allowance is based on a sliding scale, ranging from 3 percent of the first $100,000 of eligible
costs to ½ percent of eligible costs in excess of $5,000,000.


                                                         6
Accordingly, we recommend that the Director, Louisiana Transitional Recovery Office require
the State to:

   5. Advise the Parish on the federal requirements concerning how administrative allowance
      funds may be used, and

   6. Ensure that the Parish returns any unused administrative funds to FEMA at closeout.


E. Contractual Concerns with the Monitoring Contract

The Parish’s September 15, 2005 contract with the monitoring contractor did not comply with
federal procurement standards. In OIG Report Number GC-LA-06-08, dated November 14,
2005, the OIG questioned the adequacy of the Parish’s contracting procedures. The OIG
reported that the award did not comply with several 44 CFR 13.36 procurement standards.
Specifically, the report stated:

   •   The contract was not competitively bid,
   •   Parish officials did not perform a cost/price analysis that is necessary when adequate
       price competition is lacking,
   •   The contract included cost-plus-percentage-of -cost language, and
   •   The contract did not include a ceiling price that the Contractor exceeds at its own risk.

On February 24, 2006, FEMA responded to the OIG’s report and said it had encouraged the
Parish to re-bid the contract for debris monitoring responsibilities. The response also said that
the Parish agreed and solicited bids from seven companies for debris monitoring; the Parish
received three proposals and established a selection committee to review and evaluate the
proposals based on the award criteria outlined in the project solicitation; and the Selection
Committee’s evaluation of the bid proposals resulted in the incumbent monitoring contractor
being awarded the contract.

FEMA also stated in its response that, while the Parish did seek competitive proposals in its
effort to re-bid the contract, they questioned whether the Parish had followed all the
requirements of the applicable federal, state, and local laws and standards for procurement.
FEMA said that the weighted evaluation criteria the Parish used for the award gave an unfair
advantage to the contractor selected; for example, the proposal placed substantially more weight
on having trained staff in place one day after the proposals were due (90 percent) than on
contract costs (10 percent). FEMA’s response also said that the labor pricing was 10 to 15
percent higher than the low bids. However, the response stated that FEMA did not contest the
selection process because “FEMA had limited experience and institutional knowledge on the
reasonableness of the costs associated with debris monitoring operations.” The response also
stated that, with no additional information and the acceptance by the Parish and the State of the
re-bidding process and selection, FEMA had no basis to contest the unit prices and selection
process. FEMA’s response did not state whether it advised the Parish or State of the concerns
mentioned in the response.



                                                 7
OIG officials concluded, based on FEMA’s response, that the recommendation in their
November 14, 2005 report was neither resolved nor closed as a result of the re-bid process.
However, because the Parish’s debris removal activities were being re-addressed in our review,
OIG officials closed the audit for reporting purposes.

Our review of the work performed by the monitoring contractor disclosed numerous problems
related to the monitoring contractor’s oversight of the activities of the right-of-way debris
removal contractor. The problems identified during our review included that the monitoring
contractor:

    •   Did not ensure that the debris removal contractor’s invoices were accurate and
        supported, even though the Parish relied on the monitoring contractor’s assurances when
        requesting FEMA’s cost reimbursements (reportable condition A).

    •   Claimed direct labor costs for administrative positions not identified as direct charges in
        the contract (reportable condition B).

    •   Improperly accounted for costs associated with the removal and transportation of stumps
        resulting in the Parish claiming unsupported costs (reportable condition C).

        Conclusion and Recommendation

Because debris cleanup and monitoring at the Parish is complete, we are making no
recommendation concerning the selection of the monitoring contractor. However, we
recommend that the Director, Louisiana Transitional Recovery Office, require the State to

   7. Advise the Parish to comply with federal procurement standards at 44 CFR 13.36 in
      future disasters, and

   8. Evaluate the reasonableness of costs claimed for the monitoring contractor in light of the
      contractor’s substandard performance in assuring the accuracy and supportability of the
      claims certified to the Parish and adjust the claimed costs accordingly.


F. Excess Costs for Leaners and Hangers

The Parish claimed costs that exceeded the approved FEMA rates provided for in the scope of
work under PW 3384 for the removal of up-rooted trees (leaners) and branches hanging from
trees (hangers) damaged by Hurricane Katrina. The Parish claimed $33,106,379 for the removal
of the leaners and hangers, whereas the cost based on the FEMA approved rates was only
$14,409,436. Therefore, the Parish claimed $18,696,943 in excess of the amount approved by
FEMA.

FEMA’s Public Assistance Guide (FEMA 322) states that eligible costs are costs that are
reasonable and necessary to accomplish the eligible work. A reasonable cost is a cost that is both




                                                 8
fair and equitable for the type of work being performed. Reasonable costs can be established by
using average costs for similar work in the area.

Following Hurricane Katrina, Parish officials awarded a contract for the removal of debris from
Parish right-of-ways. Parish officials said the original solicitation for right-of-way debris
removal included a reference for the removal of damaged trees, but did not include a price matrix
for submittal of rates by prospective bidders. The removal of leaners and hangers was
overlooked because of the high level of activity that occurred after Hurricane Katrina. When the
Parish determined that the contractor was to remove leaners and hangers, the existing right-of-
way contractor submitted rates that were approved by the Parish and included in the contract
through a change order.

The Parish did not perform a cost analysis to determine whether the contractor’s proposed unit
costs for the change order were reasonable. The Parish also did not communicate with FEMA
before initiating the change order. However, Parish officials said the rates were reasonable based
on an undocumented price analysis they performed after the fact.

FEMA approved rates for the removal of leaners and hangers in the PW that were considerably
less than the rates included in the Parish’s contract change order. FEMA determined that the
Parish contractor’s rates were unreasonable based on the average costs of bids received by
another Parish in the area. Therefore, the amount approved in the PW reflected the reduced
rates. The Parish appealed FEMA’s decision to reduce the rates. At the conclusion of our
review, FEMA had not made a decision on this appeal, according to Parish officials.

The Parish submitted two reimbursement requests to the State claiming costs under PW 3384
based on invoices received from the right-of-way contractor. The contractor’s invoices were
based on the rates included in the right-of-way contract with the Parish. However, the
monitoring contractor, who prepared reimbursement requests for the Parish, reduced the rates
and prepared the first request for $14,409,436 based on the rates approved by FEMA. At the
request of the Parish, the monitoring contractor prepared a second reimbursement request for
costs in the amount of $18,696,943 in an attempt to recover the difference between the FEMA
rates and the amount billed by the right-of-way contractor.

On June 5, 2007, a note was added in the State of Louisiana’s public assistance database that
their review of the $18,696,943 reimbursement request determined that the costs had already
been paid (at the lower rate). However, Parish officials said, during the exit conference on June
12, 2007, that they had not received any communication stating that the claim had been
disallowed. The officials believe the claim should be approved.

       Conclusion:

When FEMA approved PW 3348, the FEMA approved rates for leaners and hangers were
considerably less than the rates included in the Parish’s contract with the right-of-way debris
removal contractor. The Parish’s claim for $14,409,436 was based on the approved rates.
However, the Parish claimed an additional $18,696,943 in an attempt to recover the amount




                                                 9
owed to the contractor under the contract. FEMA’s decision to reduce the rates resulted in a
savings of $18,696,943.


                           DISCUSSIONS WITH MANAGEMENT

We discussed the results of the review with FEMA, State, and Parish officials during exit
conferences in June 2007. The officials said that they would reserve their official comments
until after the report was issued. FEMA will receive comments from the State and the Parish,
and will provide written comments to the Office of Inspector General. However, State and
Parish officials asked us to acknowledge in the report that they had applied the lessons learned
from the award of the first monitoring contract to the subsequent contract awarded for
monitoring services. The officials also wanted to point out that we did not identify non-
compliance problems during our review of the Parish’s contracting procedures for the second
monitoring contract.




                                                10
                                                                                                 Attachment I
                                  Department of Homeland Security
                                      Office of Inspector General
                                State of Louisiana – Washington Parish
                                 Review of Debris Removal Activities

                                  Project Worksheet Eligible Amounts
                                  Approved Reimbursement Requests
                                           Questioned Costs
                                          September 30, 2006


                                                         PW
       Project                                                              Approved
                                Activity               Eligible                                 Questioned
      Worksheet                                                          Reimbursements
                                                       Amounts                                    Costs
                                                                                                               2
           270        Debris Removal                   $30,108,235               $23,293,034
           2643       Stump Removal                      8,052,000                  884,708 3    $ 741,086
           3144       ROW Monitoring                    11,407,841                 9,956,211        613,325
           3145       Landfill Management                  532,228                   625,311             -0-
           3146       Stump Disposal                       151,200                        -0-            -0-
           3147       PPDR                              18,000,000                 7,529,730             -0-
           3148       PPDR Monitoring                    6,000,000                 4,243,982             -0-
           3240       Landfill Leases                      847,300                 1,083,031             -0-
           3242       C & D Removal                      1,125,000                    47,596
           3384       Leaners & Hangers                 15,701,205               14,409,437 4             -0-
           5522       Stump Disposal                     1,028,160                        -0-             -0-
           6873       PP Demolition                        983,945                        -0-             -0-
           7027       Landfill Management                   10,600                    10,600              -0-
          10547       Hazardous Material                   320,805                   288,725              -0-
          10647       Parish Overtime, Materials            76,807                        -0-             -0-
                      & Equipment
                      Data Mining Results                                               N/A         743,700
                       Totals                           $94,345,326              $62,372,364    $ 2,098,111



Source:           State of Louisiana database – LAPA.com – provided the PW eligible amounts and
                  the amounts approved from Parish reimbursement requests.



2
 The data mining analysis identified questioned costs totaling $743,700. However, the condition of the monitoring
contractor’s records did not allow us to determine how the $743,700 should be spread between the applicable
Project Worksheets. The PWs related to the $744,306 questioned costs were PW Numbers 270, 2643, and 3242.
The portion of the $743,700 applicable to PW 2643 would be in addition to the $741,086 identified in reportable
condition C – Unsupported Claims for Tree Stumps.
3
 Parish records show that as of September 30, 2006, the Parish had submitted reimbursement requests totaling
$1,474,855.
4
  The Parish submitted an additional reimbursement request for $18,696,943 on April 28, 2006 to recoup expenses
in excess of FEMA approved rates on invoices previously paid at the approved rate.


                                                       11
                                                                                     Attachment II
                              Department of Homeland Security
                                  Office of Inspector General
                            State of Louisiana – Washington Parish
                             Review of Debris Removal Activities

                              Objectives, Scope, and Methodology

The objective of our review of ongoing Hurricane Katrina debris removal activities in
Washington Parish, Louisiana was to determine whether the awarded contracts and contractor
billings were in compliance with applicable federal criteria. We also reviewed selected aspects
of the overall management of debris removal and monitoring within the Parish because of the
magnitude of the devastation and the volume of debris created by Katrina.

The scope of the review included all debris removal and monitoring activities managed by the
Parish during the period August 29, 2005 through September 30, 2006. We performed the work
at the Joint Field Office in Baton Rouge, Louisiana, FEMA’s area offices in Covington,
Louisiana, Washington Parish’s government offices, contractor locations, and at the temporary
and permanent landfill locations. In addition, we utilized the services of a University to assist in
the performance of data mining of the debris removal invoice data base discussed in reportable
condition A.

Our methodology included interviews with FEMA, State, Parish, and contractor officials to
obtain an understanding of internal control systems and to identify current issues and concerns
relative to the debris removal. We reviewed contract types, procurement methods,
reasonableness of contract rates, compliance with federal requirements, and cost/price analyses
performed by the Parish. We also reviewed the Parish’s reimbursement requests for contractor
billings through September 30, 2006, to determine whether the amounts claimed for incurred
expenses were appropriately supported, accurate, and according to applicable laws and
regulations.

The Department of Homeland Security, Office of Inspector General (DHS/OIG) is reporting the
results of the review to appropriate DHS officials. We discussed the review results in draft with
cognizant DHS, State, and Parish officials and incorporated their comments, as appropriate,
within the body of the report.

The nature and brevity of this review precluded the use of our normal review protocols.
Therefore, this review was not conducted according to Generally Accepted Government
Auditing Standards. Had we followed such standards, other matters may have come to our
attention. However, we conducted sufficient procedures to achieve the objectives of the review
and to ensure that the reportable conditions were correct.




                                                 12
